           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:    INFORMATION: Quality Control Review                        Date:   January 27, 2003
            of Audited Financial Statements
            for Fiscal Year 2002, FAA
            QC-2003-017
                                                                    Reply To
  From      Kenneth M. Mead                                         Attn Of    Meche:x61496
            Inspector General

    To      The Secretary
            Federal Aviation Administrator

           The audit of the Federal Aviation Administration (FAA) Financial Statements as
           of and for the year ended September 30, 2002, was completed by KPMG LLP
           (KPMG) of Washington, D.C. We performed a quality control review of the audit
           work to determine compliance with applicable standards. These standards include
           the Chief Financial Officers Act, Government Auditing Standards, and Office of
           Management and Budget Bulletin 01-02, Audit Requirements for Federal
           Financial Statements.

           The KPMG audit report rendered an unqualified opinion on the FAA financial
           statements. The report included one material internal control weakness, six
           reportable internal control conditions, and one material noncompliance with
           accounting laws and regulations. KPMG made 14 recommendations for corrective
           actions (see Attachment). We agree with the KPMG recommendations. We are
           requesting that, within 15 days, FAA specify actions taken and planned, along with
           estimated completion dates for planned actions.

           In our opinion, the audit work performed by KPMG complied with applicable
           standards. Therefore, we are not making any additional recommendations.

           We appreciate the cooperation and assistance of FAA and KPMG representatives.
           If we can answer any questions, please call me at (202) 366-1959, or John Meche
           at (202) 366-1496.

           Attachment

                                                   #
                                                                   ATTACHMENT
                                                                        (3 pages)
              KPMG RECOMMENDATIONS ON ITS AUDIT
                 OF FAA FINANCIAL STATEMENTS

Recommendation 1

Develop a communication and coordination plan to ensure timely, complete,
accurate information regarding legal matters is routinely provided and reviewed.
The information must be sufficiently complete to allow FAA to properly state
legal liabilities in the financial statements and the notes thereto, in compliance
with applicable accounting standards.

Recommendation 2

Since FAA will be converting to DOT's new accounting system in the near future,
FAA should establish compensating controls to detect and correct financial
reporting and accounting reconciliation discrepancies. In conjunction with this
effort, FAA should routinely reconcile and resolve budgetary and proprietary
account differences, and perform account and subledger analyses and
reconciliations on other key accounts throughout the year, in order to produce
reliable interim financial reports and reduce the number of post-closing
adjustments at year-end. FAA also should assess the financial reporting impact
related to weaknesses in its process for closing-out cost reimbursable contracts.

Recommendation 3

To improve the reliability, relevance and timeliness of information regarding
environmental remediation, FAA should:

   • Establish a process to provide periodic reporting for environmental
     liabilities;

   • Develop and report estimates in current year dollars;

   • Consider a risk-based evaluation of uninspected facilities to determine if
     any environmental remediation exists. This evaluation should focus on
     those facilities that are similar in function and design as other facilities in
     which FAA has determined contamination exists;

   • Develop guidance for Environmental Site and Cleanup Report preparation
     and documentation requirements; and

   • Improve documentation and quantification of planning assumptions.
Recommendation 4

Regarding the environmental cleanup and decommissioning estimate, FAA
should:

   • Establish a process to provide quarterly reporting for environmental
     liabilities;

   • Improve the planning assumption documentation to include information on
     the contaminate type and quantity;

   • Develop cost estimating models for each facility type; and

   • Establish a cost/schedule baseline estimate for the environmental cleanup
     and decommissioning scope of work.

Recommendation 5

Implement procedures to ensure that field spare quantities are adequately recorded
and tracked.

Recommendation 6

Evaluate the accounting methodology used by the Franchise Fund to account for
returned field spares to ensure that the financial statements properly reflect
depreciation and do not include adjustments for changes in value (other that
depreciation expense) once the field spare is issued by the Franchise Fund.

Recommendation 7

Develop and implement formal periodic financial reporting processes to reconcile
the property recorded in IFAS to the general ledger, and record additions and
disposals in a timely manner.

Recommendation 8

Ensure that there is appropriate staffing to complete and review these periodic
month-end reporting procedures, and that regional offices fully cooperate in
providing information in a timely manner.
Recommendation 9

Prepare a roll-forward of fixed assets on a regular basis, at least quarterly, as a
high level review of the property activity and help ensure that all transactions have
been properly coded and recorded.

Recommendation 10

Improve FAA policy regarding accounting for construction-in-progress and ensure
a timely matching of depreciation expense with assets placed in-service.

Recommendation 11

In conjunction with the Assistant Administrator for Regions and Center,
reemphasize the need to follow procedures related to recording property disposals
timely and ensuring labor, travel and other costs necessary to put an asset in place
are correctly capitalized.

Recommendation 12

Improve information      technology controls      over   third-party systems and
applications by:

   • Monitoring the progress of the FAA organizations responsible for
     implementing the specific recommendations previously provided;

   • In conjunction with the DOT OIG, request that the USDA OIG complete its
     review of the FAA operations at NITC sooner; and

   • In conjunction with DOT, request FTA to have an independent review
     performed, preferably in accordance with SAS 70, and prepare a report on
     controls placed in operation and tests of operating effectiveness related to
     the ECHO system.

Recommendation 13

Monitor the progress of those who are responsible for implementation of the
specific recommendations associated with LIS.

Recommendation 14

Work aggressively to implement the new DOT accounting system.
